Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   HOME HEALTH AGENCIES
  RECEIVED TIMELY SURVEYS
       AND CORRECTED
  DEFICIENCIES AS REQUIRED




                    Daniel R. Levinson
                     Inspector General

                       April 2013
                     OEI-06-11-00400
EXECUTIVE SUMMARY: HOME HEALTH AGENCIES RECEIVED TIMELY SURVEYS AND
CORRECTED DEFICIENCIES AS REQUIRED
OEI-06-11-00400

WHY WE DID THIS STUDY

Over the last decade, the use of home health services increased significantly and Medicare payments to home
health agencies (HHA) more than doubled. To ensure that HHAs comply with Federal requirements, the
Centers for Medicare & Medicaid Services (CMS) contracts with each State survey agency (State agency)
and three accreditation organizations to conduct initial certification surveys of HHAs, recertification surveys,
and complaint investigations. CMS also monitors the performance of accreditation organizations by
contracting with State agencies to perform “look-behind” surveys of HHAs recently surveyed by
accreditation organizations. CMS compares an accreditation organization’s survey of an individual HHA
with a State agency’s subsequent survey of the same HHA, and then uses that information in aggregate to
evaluate the accreditation organization’s overall survey performance. A 2008 study by the Office of
Inspector General (OIG) found that many HHAs had the same deficiencies cited during multiple
recertification surveys and CMS rarely used the only sanction available—termination—to address HHA
noncompliance.

HOW WE DID THIS STUDY

Using CMS data for Federal fiscal years 2010 and 2011, we identified the extent to which State agencies and
accreditation organizations conducted timely recertification surveys of HHAs. We also identified the extent
to which HHAs received deficiency citations, corrected deficiencies, or had complaints lodged against them.
Additionally, we determined the extent to which CMS used
look-behind surveys to assess the performance of accreditation organizations and State agencies.

WHAT WE FOUND

State agencies and accreditation organizations conducted recertification surveys for nearly all HHAs within
the required 36-month timeframe and cited 12 percent of HHAs with “condition”-level deficiencies, the most
serious type of deficiency. Ninety-three percent of these HHAs corrected their condition-level deficiencies
within the required 90-day timeframe; the remaining 7 percent corrected the deficiencies late or left
Medicare. Fifteen percent of HHAs had complaints lodged against them; surveyors conducted complaint
investigation surveys for nearly all of these HHAs and cited 7 percent of them with condition-level
deficiencies. With few exceptions, HHAs corrected all condition-level deficiencies cited during complaint
surveys. State agencies exceeded the required number of look-behind surveys for oversight of accreditation
organizations. CMS rarely conducted look-behind surveys for oversight of State agencies’ surveys of HHAs;
such look-behind surveys are not required by Federal regulation.

WHAT WE RECOMMEND

We recommend that CMS analyze survey data to determine whether it should routinely conduct
look-behind surveys for oversight of State agencies, which conduct most HHA recertification surveys.
CMS concurred with our recommendation and stated that its central office will work with the CMS regional
offices to identify State agencies with the greatest need for look-behind surveys.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................10 

           Surveyors conducted recertification surveys on time for 

           98 percent of HHAs and cited 12 percent of HHAs with 

           condition-level (i.e., serious) deficiencies .....................................10 

           Among the HHAs with condition-level deficiencies, 93 percent
           corrected all deficiencies within required timeframes ...................12 

           Surveyors conducted complaint surveys for virtually all of the
           15 percent of HHAs that had complaints lodged against them ......12 

           State agencies conducted look-behind surveys of 14 percent 

           of HHAs surveyed by accreditation organizations, exceeding 

           CMS’s 5-percent standard ..............................................................14 

           CMS rarely conducted look-behind surveys for oversight of 

           State agencies’ surveys of HHAs; such look-behind surveys                         

           are not required by Federal regulation ...........................................15 

Conclusion and Recommendation .............................................................16 

           Agency Comments and Office of Inspector General Response.....17 

Appendixes ................................................................................................18 

           A: The Number and Percentage of Home Health Agencies                        

           with Condition-Level Deficiency Citations on Recertification 

           Surveys During Fiscal Years 2010–11 ...........................................18 

           B: Types of Substantiated Complaints Lodged Against Home

           Health Agencies During Fiscal Years 2010–11 ..............................21 

           C: Agency Comments ...................................................................22 

Acknowledgments......................................................................................23 

                  OBJECTIVES
                  1.	 To determine the extent to which State survey agencies (State
                      agencies) and accreditation organizations conducted recertification
                      surveys of home health agencies (HHA) within required timeframes
                      during fiscal years (FY) 2010–11.1
                  2.	 To determine the extent to which HHAs received deficiency citations
                      on recertification surveys and the nature and resulting actions of those
                      deficiencies during FYs 2010–11.
                  3.	 To determine the extent to which HHAs had complaints lodged
                      (i.e., allegations made) against them, the nature of those complaints,
                      and the actions resulting from those complaints during FYs 2010–11.
                  4.	 To determine the extent to which the Centers for Medicare & Medicaid
                      Services (CMS) used “look-behind” surveys to assess the performance
                      of surveyors during FYs 2010–11.

                  BACKGROUND
                  HHAs provide home health services for Medicare beneficiaries with
                  short- or long-term illnesses or injuries who are confined to their homes
                  and need skilled nursing care on an intermittent basis, physical therapy,
                  speech therapy and/or continuing occupational therapy.2 In recent years,
                  the use of Medicare home health services has grown. From 2002 to 2010,
                  Medicare beneficiaries receiving home health services increased by nearly
                  35 percent (from 2.6 to 3.4 million beneficiaries), and the number of
                  Medicare-certified HHAs increased by 69 percent (from 6,813 to
                  11,548 HHAs).3, 4 In 2010, Medicare paid $19.5 billion for home health
                  services, compared to $9.6 billion in 2002.
                  Survey and Certification of Home Health Agencies
                  All HHAs participating in the Medicare program must comply with
                  15 Medicare Conditions of Participation (CoP).5 The CoPs fall into
                  two areas: administration and furnishing of services. Twelve of the


                  1
                    All fiscal year references in this report are based on the Federal fiscal year (October 1
                  through September 30).

                  2
                    Social Security Act, §§ 1812(a)(3), 1814(a)(2)(C), 1832(a)(2)(A), 1835(a)(2)(A), and 

                  1861(m). 

                  3
                    CMS, Data Compendium, 2003, 2011. Accessed at https://www.cms.gov on May 23, 

                  2012. From 2002 to 2010, the number of Medicare beneficiary visits conducted by

                  HHAs increased by 60 percent (from 78.1 million visits to 124.7 million visits).

                  4
                    CMS, Financial Report, 2011, p. 138. 

                  5
                    Social Security Act §§ 1861(o)(6) and 1891(a); 42 CFR pt. 484 (subparts B and C). 


Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)       1
                  fifteen CoPs are subdivided into “standards,” which address specific
                  aspects of the CoPs.6
                  To ensure compliance with the 15 CoPs, CMS enters into agreements with
                  State agencies and accreditation organizations to conduct initial
                  certification surveys of HHAs, recertification surveys, and complaint
                  investigations.7 In this report, we use the term “surveyors” to refer to both
                  State agencies and accreditation organizations.
                  Recertification Surveys. Federal law requires that HHAs receive a
                  recertification survey at least every 36 months to verify compliance with
                  the CoPs.8 Recertification surveys review “the quality of care and services
                  furnished by the agency as measured by indicators of medical, nursing,
                  and rehabilitative care,” and include patient home visits and interviews
                  with patients and HHA staff.9 Recertification surveys also include a
                  review of previous survey data (if available), complaint data, and clinical
                  records.10
                  Deficiency Citations. If a surveyor determines that an HHA is out of
                  compliance with a standard during a recertification survey, the surveyor
                  can cite the HHA with a “standard-level deficiency.” If the surveyor
                  determines that the HHA is out of compliance with a CoP, the surveyor
                  can cite the HHA with a “condition-level deficiency,” the more serious
                  type of deficiency.11
                  Correcting Deficiencies. If an HHA has one or more condition-level
                  deficiencies, it is considered out of compliance with the CoPs. For such
                  noncompliance, the surveyor must provide the HHA with a Statement of

                  6
                    The three CoPs that are not defined further by standards are: release of patient
                  identifiable Outcome and Assessment Information Set (OASIS) information (42 CFR
                  § 484.11); qualifying to furnish outpatient physical therapy or speech pathology services
                  (42 CFR § 484.34); and medical social services (42 CFR § 484.38).
                  7
                    Social Security Act, §§ 1891(c)(2)(A) and 1865(a); 42 CFR § 488.10(d). The three
                  accreditation organizations approved to conduct surveys are the Accreditation
                  Commission for Health Care, the Community Health Accreditation Program, and the
                  Joint Commission.
                  8
                    Social Security Act, § 1891(c)(2)(A); CMS, pt. I, section II.E, Recertification Surveys,
                  of the Advance Copy of App. B to CMS, State Operations Manual, Pub. No. 100-07
                  (SOM, Advance App. B), attached to CMS Memorandum to State Survey Agency
                  Directors, S&C 11-11-HHA, February 11, 2011 (effective May 1, 2011). For HHA
                  recertification surveys, CMS includes 90 percent of the succeeding month to permit
                  completion of any survey in progress. See CMS, Division of Survey and Certification,
                  Quality Assurance for the Medicare & Medicaid Programs, FY 2011 Mission & Priority
                  Document, September 3, 2010 (revised October 15, 2010).
                  9
                    Social Security Act, § 1891(c)(2)(C)(i)(II); CMS, SOM, Advance App. B, pt. I,
                  section II.B, Standard Survey.

                  10
                     CMS, SOM, Advance App. B, pt. I, section II.E, Recertification Surveys, and pt. I,

                  section III, Task 1, Pre-Survey Preparation. 

                  11
                     CMS, SOM, Advance App. B, pt. I, section III, Task 4, Information Analysis.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)      2
                  Deficiencies and Plan of Correction form that includes evidence to support
                  the deficiency citation(s) and a section that HHAs can use to document a
                  plan of correction. The HHA must respond with a plan of correction
                  within 10 calendar days of receiving this form.12 If an HHA with
                  standard-level deficiencies submits an acceptable plan of correction for
                  achieving compliance within a reasonable period of time, which is
                  generally no longer than 60 days after notification of the deficiencies, the
                  surveyor will certify the HHA as in compliance with the CoPs.13
                  For an HHA with one or more condition-level deficiencies, a surveyor
                  cannot certify compliance based solely on a plan of correction. In these
                  cases, CMS must place the HHA on a 90-day termination track (the only
                  enforcement remedy currently available to CMS).14, 15 To continue
                  participating in Medicare, the HHA must submit a “credible allegation of
                  compliance,” and achieve compliance or acceptable progress within the
                  90-day timeframe.16 If a surveyor documents “immediate jeopardy” to
                  patient health and safety, the State agency must place the HHA on a
                  23-day termination track, using the same procedures as the 90-day
                  termination track.17
                  Complaint Investigations. Medicare beneficiaries, families of
                  beneficiaries, HHA staff, physicians, and others can lodge complaints
                  against HHAs to a variety of entities, including State agencies,
                  accreditation organizations, and CMS. CMS and State agencies track
                  complaints lodged, categorize them into different severity levels, and
                  determine actions to take (e.g., referral to another agency, offsite




                  12
                     CMS, SOM, Pub. No. 100-07, ch. 2, §§ 2728, 2728A, and 2728B. 

                  13
                     Ibid.  An acceptable plan of correction must include the following elements: plan of 

                  correcting the specific deficiency and addressing the processes that led to the deficiency 

                  cited; procedure for implementing the acceptable plan of correction for the specific 

                  deficiency cited; monitoring procedure to ensure that the plan of correction is effective 

                  and that specific deficiency cited remains corrected and/or in compliance with the 

                  regulatory requirements; and title of the person responsible for implementing the 

                  acceptable plan of correction. 

                  14
                     CMS, SOM, ch. 3, § 3012. 

                  15
                     On November 8, 2012, CMS issued a final rule to implement intermediate (or 

                  alternative) sanctions for noncompliant HHAs. For more information on this rule, see the
                  “Other Studies” section on page 6.
                  16
                     CMS, SOM, ch. 3, § 3016A. “Credible allegation of compliance” is defined as “a
                  statement or documentation: that is realistic in terms of the possibility of corrective
                  action being accomplished between the exit conference and the date of allegation; and
                  that indicates resolution of the problems.”
                  17
                     CMS, SOM, ch. 3, § 3010B.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)       3
                  investigation, onsite investigation) on the basis of those severity levels.18
                  CMS and State agencies categorize lodged complaints into one of eight
                  severity levels, and CMS requires surveyors to conduct complaint
                  investigation surveys (hereafter referred to as complaint surveys) for the
                  three most severe of these:
                       	 Immediate jeopardy: Provider’s noncompliance with the CoPs has
                          caused or is likely to cause serious injury, harm, impairment, or
                          death.19
                       	 Non-immediate jeopardy high: Provider’s noncompliance with the
                          CoPs may have caused harm that negatively affects the
                          individual’s mental, physical, and/or psychosocial status and is of
                          such consequence to the person’s well-being that a rapid response
                          by the State agency is indicated.20
                       	 Non-immediate jeopardy medium: Provider’s noncompliance with
                          the CoPs caused or may cause harm that is of limited consequence
                          and does not significantly impair the individual’s mental, physical,
                          and/or psychosocial status or function.21
                  Surveyors conducting complaint surveys focus on the specific regulatory
                  requirements related to the complaint lodged. If surveyors identify
                  significant problems, the surveyors can expand the survey to review the
                  HHA’s compliance with other CoPs.22 If surveyors find evidence
                  supporting the complaint, the surveyors substantiate the complaint.23
                  During a complaint survey, surveyors not only determine whether the
                  complaint is substantiated, but also cite any deficiencies found, which may
                  or may not directly relate to the complaint. If surveyors find
                  condition-level deficiencies, they can place the HHA on a termination
                  track. To continue participating in Medicare, the HHA must submit an




                  18
                     CMS, SOM, ch. 5, §§ 5075.1–5075.8. CMS and State agencies categorize lodged

                  complaints into one of the following eight severity levels: immediate jeopardy, 

                  non-immediate jeopardy high, non-immediate jeopardy medium, non-immediate jeopardy

                  low, administrative review/offsite investigation, immediate referral, other referral, and no

                  action necessary. 

                  19
                     CMS, SOM, ch. 5, § 5075.1, p. 14. 

                  20
                     CMS, SOM, ch. 5, § 5075.2, p. 15. Although the SOM states that only nursing home 

                  complaints—as opposed to complaints regarding other facilities—can be categorized at 

                  the level “non-immediate jeopardy high,” a CMS official explained that some complaints

                  lodged against HHAs are also categorized at this level and require complaint surveys 

                  within 2 or 10 days.

                  21
                     CMS, SOM, ch. 5, § 5075.3, p. 16. 

                  22
                     CMS, SOM, ch. 5, § 5200.1, p. 33. 

                  23
                     CMS, SOM, ch. 9, Exhibit 23.


Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)       4
                  acceptable plan of correction, as it does when deficiencies are cited during
                  a recertification survey.24
                  For the other five levels of complaints lodged, the surveyor can wait until
                  the next survey to review the issue related to the complaint.25
                  Additionally, surveyors can refer the complaint to another agency or entity
                  (e.g., law enforcement or licensure agency) for investigation or for
                  informational purposes.26
                  “Look-Behind” Surveys of Accreditation Organizations and
                  State Agencies
                  Federal law requires that CMS annually report to Congress about the
                  performance of accreditation organizations.27 To assess these
                  organizations’ performance, CMS enters into agreements with State
                  agencies for the agencies to annually conduct “look-behind” surveys of a
                  representative sample of at least 5 percent of HHAs surveyed by
                  accreditation organizations.28 These surveys (which CMS refers to as
                  “validation surveys”) enable CMS to compare an accreditation
                  organization’s results for an individual HHA with those from a State
                  agency’s subsequent survey of the same HHA.
                  The look-behind survey, which a State agency must conduct no later than
                  60 days following an accreditation organization’s survey of the same
                  HHA, reviews the HHA’s compliance with the CoPs. During a
                  look-behind survey, the State agency can cite the HHA with deficiencies in
                  the same way as during a certification or recertification survey. Once the
                  State agency completes the survey, it provides CMS with the survey
                  results. For each HHA that receives a look-behind survey, CMS compares
                  the condition-level deficiencies identified by the State agency to those
                  identified by the accreditation organization.29 CMS uses this information
                  in aggregate to calculate a disparity rate, which is the percentage of all
                  look-behind surveys in which the accreditation organization missed a
                  condition-level deficiency identified by a State agency.30


                  24
                     CMS, SOM, ch. 5, § 5200.1, p. 33. 

                  25
                     CMS, SOM, ch. 5, §§ 5075.4, 5075.5, and 5075.8. 

                  26
                     CMS, SOM, ch. 5, §§ 5075.6–5075.7. 

                  27
                     Social Security Act, § 1875(b). 

                  28
                     CMS, Division of Survey and Certification, Quality Assurance for the Medicare &

                  Medicaid Programs, FY 2011 Mission & Priority Document, September 3, 2010 (revised
                  October 15, 2010).
                  29
                     CMS, Financial Report, 2010, p. 152.
                  30
                     Ibid., p. 154. The disparity rate is calculated by taking the number of look-behind
                  surveys in which a State agency found at least one condition-level deficiency that a given
                  accreditation organization had missed for the same HHA, and dividing it by the total
                  number of look-behind surveys for that accreditation organization.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)     5
                  Federal law does not require CMS to conduct look-behind surveys to
                  assess State agencies’ performance in surveying HHAs, but CMS may
                  conduct such surveys if it wishes. In these cases, CMS itself conducts the
                  look-behind survey of an HHA, rather than contracting with another entity
                  to do it. CMS then compares its results for an individual HHA with the
                  State agency’s results for the same HHA. Although look-behind surveys
                  to evaluate State agencies’ performance (surveys that CMS refers to as
                  “Federal monitoring surveys”) are not required vis-à-vis State agencies’
                  surveys of HHAs, they are required for State agencies’ surveys of nursing
                  homes, which serve beneficiary populations similar to those of HHAs, and
                  CMS routinely conducts such surveys.31
                  Other Studies
                  A 2008 report by the Office of Inspector General (OIG) found that many
                  HHAs had the same deficiencies cited during multiple recertification
                  surveys.32 Further, the study found that CMS rarely used the only sanction
                  available—termination—to address HHAs with repeated deficiencies. In
                  the report, OIG recommended that CMS implement intermediate sanctions
                  for HHAs as required by the Omnibus Budget Reconciliation Act of
                  1987.33 In March 2012, OIG reiterated this recommendation in an early
                  alert memorandum to CMS that outlined CMS’s limited action toward
                  promulgating regulations for the HHA intermediate sanctions.34 In
                  November 2012, CMS issued a final rule to implement intermediate (or
                  alternative) sanctions for noncompliant HHAs. The first set of sanctions,
                  which will become effective on July 1, 2013, includes temporary
                  management, directed plans of correction, and directed in-service training.
                  Two additional sanctions—civil money penalties and suspension of
                  Medicare payments for new patient admissions—will become effective on
                  July 1, 2014.35




                  31
                     Social Security Act, §§ 1819(g)(3)(B)(Medicare) and 1919(g)(3)(B)(Medicaid); CMS,
                  SOM, ch. 4, § 4157D. Federal law requires CMS to conduct look-behind surveys of at
                  least 5 percent of the number of nursing homes surveyed by each State agency each year,
                  but in no case is CMS to survey fewer than five nursing homes in each State per year.
                  32
                     Department of Health and Human Services (DHHS), OIG, Deficiency History and
                  Recertification of Medicare Home Health Agencies, OEI-09-06-00040, August 2008.
                  33
                     Omnibus Budget Reconciliation Act of 1987, P.L. 100-203, § 4023 (adding Social
                  Security Act, §§ 1891(e) and (f)).
                  34
                     DHHS, OIG, Early Alert Memorandum Report: Intermediate Sanctions for
                  Noncompliant Home Health Agencies, OEI-06-11-00401, March 2012.
                  35
                     77 Fed. Reg. 67068 (November 8, 2012).

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   6
                  METHODOLOGY
                  Scope
                  This evaluation examines all Medicare-certified HHAs that received a
                  recertification survey, had a complaint lodged against them, and/or
                  received a look-behind survey during FYs 2010–11. Consequently, this
                  evaluation does not include HHAs that did not receive a recertification
                  survey during FYs 2010–11.
                  Data Collection and Analysis
                  To analyze all HHA recertification surveys and complaints during
                  FYs 2010–11, we obtained data from three CMS databases: the
                  Automated Survey Processing Environments (ASPEN), the Certification
                  and Survey Provider Enhanced Reporting (CASPER), and the Accrediting
                  Organization System for Storing User Recorded Experiences (ASSURE).
                  ASPEN and CASPER store data from recertification surveys conducted by
                  State agencies and include all HHA enrollment, termination, and
                  complaint data. ASSURE stores data from HHA recertification surveys
                  conducted by accreditation organizations. To analyze look-behind
                  surveys, we obtained copies of Statement of Deficiencies forms from
                  CMS.
                  Recertification Surveys. We identified all HHAs that received a
                  recertification survey during FYs 2010–11, using data from ASPEN and
                  CASPER for surveys conducted by State agencies and ASSURE for
                  surveys conducted by accreditation organizations.36 To identify and
                  calculate the percentage of HHAs that received a recertification survey
                  within the required timeframe, we counted the number of working days
                  since the prior recertification survey date.37 For each recertification
                  survey, we identified all deficiency citations and calculated the percentage
                  of HHAs with citations. We focused additional analysis on citations for
                  condition-level deficiencies, the more serious of the two kinds of
                  deficiencies. We identified whether HHAs corrected their condition-level
                  deficiencies, returned to compliance within the required 90-day timeframe,
                  or were terminated from Medicare. For each scenario, we calculated the
                  associated percentage of HHAs.



                  36
                     This analysis included only recertification surveys, not other types of surveys such as
                  initial certification surveys. 

                  37
                     We used 36.9 months as our criteria for calculating surveys conducted within the 

                  required timeframe because CMS includes 90 percent of the succeeding month to permit 

                  completion of any survey in progress. See CMS, Division of Survey and Certification,

                  Quality Assurance for the Medicare & Medicaid Programs, FY 2011 Mission & Priority
                  Document, September 3, 2010 (revised November 15, 2010).

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)     7
                  Complaints and Complaint Surveys. We used ASPEN to identify all
                  HHAs that had a complaint lodged against them alleging noncompliance
                  during FYs 2010–11.38 We calculated the percentage of HHAs with any
                  complaints lodged and identified the severity of those complaints. We
                  also calculated the percentage of HHAs with substantiated complaints and
                  the percentage of HHAs that received a complaint survey. Although
                  ASPEN indicated that HHAs received a complaint survey, ASPEN did not
                  contain records of the survey results for all HHAs. More specifically, it
                  was missing one or more survey records for 261 HHAs that received a
                  complaint survey.39 As a result, our analysis of complaint surveys
                  included only HHAs for which ASPEN had survey records.40 For each
                  complaint survey, we identified all deficiency citations and calculated the
                  percentage of HHAs with such citations. We focused additional analysis
                  on citations for condition-level deficiencies and identified whether HHAs
                  corrected these deficiencies, returned to compliance within the required
                  90-day timeframe, or were terminated from Medicare.
                  Look-Behind Surveys. We identified all HHAs that received a look-behind
                  survey during FYs 2010–11 using Statement of Deficiencies forms
                  obtained from CMS. For State agencies, we identified whether surveyors
                  each year collectively conducted look-behind surveys of 5 percent of
                  HHAs surveyed by accreditation organizations, as required by CMS. For
                  each look-behind survey, we identified condition-level deficiencies cited
                  by State agencies but missed by accreditation organizations. Using this
                  information, we calculated a disparity rate across the three accreditation
                  organizations. Lastly, we identified the extent to which CMS voluntarily
                  conducted look-behind surveys of State agency-surveyed HHAs to assess
                  State agencies’ performance.
                  Limitations
                  This study has two limitations. First, we did not compare deficiency
                  citation rates between HHAs surveyed by State agencies and those
                  surveyed by accreditation organizations because the surveying entities
                  conduct recertification surveys differently—though all State agencies use
                  similar survey instruments and methodology, each accreditation
                  organization uses its own process. Moreover, although accreditation
                  organizations must match their deficiency citations to those used by State

                  38
                     In our analysis, we did not include any complaints unrelated to the Federal
                  requirements, such as complaints related solely to State matters, which were outside the
                  scope of the study.
                  39
                     A CMS official indicated that a failure of the complaint survey records to upload into
                  ASPEN may likely be the cause of the missing records.

                  40
                     This analysis includes only complaint surveys, not other types of surveys such as initial 

                  certification surveys. 


Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)       8
                  agencies, a deficiency cited by an accreditation organization may not
                  correspond directly to a deficiency cited by a State agency. Second, we
                  could not include all HHAs that received a complaint survey in our
                  analysis because ASPEN was missing one or more complaint survey
                  records for 261 HHAs.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   9
                  FINDINGS
                  Surveyors conducted recertification surveys on time
                  for 98 percent of HHAs and cited 12 percent of HHAs
                  with condition-level (i.e., serious) deficiencies
                  Surveyors conducted recertification surveys of 6,316 HHAs during
                  FYs 2010–11. Eighty-two percent of these HHAs (5,210) were surveyed
                  by State agencies, whereas 18 percent (1,106) were surveyed by
                  accreditation organizations. Ninety-eight percent of these 6,316 HHAs
                  (6,190) received a recertification survey within the required 36-month
                  timeframe. For the remaining 2 percent of HHAs (126), surveyors were
                  late in conducting the survey by a median of 3.3 months. Of the
                  126 HHAs that were surveyed late, 32 HHAs were not surveyed until
                  more than a year after the required 36-month timeframe.

                  Collectively, surveyors cited 12 percent of HHAs with at least
                  one condition-level deficiency, but citation varied widely by
                  State agency and by accreditation organization
                  Among the 6,316 HHAs that received a recertification survey, surveyors
                  cited deficiencies—including both standard-level and condition-level
                  deficiencies—for 74 percent (4,694). For the remaining 26 percent of
                  HHAs (1,622), surveyors cited no deficiencies. Among the 74 percent of
                  HHAs with deficiencies, surveyors cited 62 percent (3,942 of 6,316) with
                  standard-level deficiencies only, and cited an additional 12 percent (752 of
                  6,316) with at least one condition-level deficiency, the more serious type
                  of deficiency (see Figure 1).

                  Figure 1: HHAs With Deficiency Citations on Recertification Surveys




                  Source: OIG analysis of 6,316 HHAs’ recertification surveys in FYs 2010–11.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   10
                  Among the HHAs with condition-level deficiencies, surveyors found
                  noncompliance across all 15 CoPs and cited a total of
                  1,736 condition-level deficiencies. Fifty-four percent of these HHAs
                  (409 of 752) received two or more condition-level deficiency citations.41
                  The HHA with the most condition-level deficiencies was cited for 13 of
                  the 15 CoPs.
                  The most frequently cited condition-level deficiency among these HHAs,
                  cited for 35 percent of HHAs (265 of 752), involved noncompliance with
                  “acceptance of patients, plan of care, and medical supervision.” (Table 1
                  lists the number and percentage of HHAs with condition-level deficiencies
                  in each of the 15 CoPs.)
                  Table 1: HHAs Cited With Condition-Level Deficiencies, by Condition of
                  Participation
                                                                                         HHAs Cited With
                                                                                          Condition-Level
                    Condition of Participation*                                                                   Percentage
                                                                                              Deficiency
                                                                                                  (n=752)
                    Acceptance of patients, plan of care and medical
                                                                                                         265              35%
                    supervision
                    Organization, services and administration                                            241              32%
                    Skilled nursing services                                                             200              27%
                    Clinical records                                                                     183              24%
                    Evaluation of the agency’s program                                                   157              21%
                    Comprehensive assessment of patients                                                 145              19%
                    Reporting OASIS information                                                          145              19%
                    Group of professional personnel                                                      130              17%
                    Home health aide services                                                            129              17%
                    Patient rights                                                                        42               6%
                    Therapy services                                                                      42               6%
                    Compliance with Federal, State, and local laws                                        30               4%
                    Medical social services                                                               21               3%
                    Release of patient personally identifiable information                                 5              <1%
                    Outpatient physical therapy or speech pathology services                               1              <1%
                  Note: Some HHAs had more than one recertification survey and could have received a condition-level deficiency

                  citation for the same CoP more than once; however, we counted each HHA only once for each CoP. 

                  *See 42 CFR pt. 484 (subparts B and C). 

                  Source: OIG analysis of 752 HHAs cited with condition-level deficiencies on recertification surveys in 

                  FYs 2010–11. 



                  Surveyors varied in the percentages of HHAs they cited with
                  condition-level deficiencies during recertification surveys. State agencies
                  gave condition-level deficiency citations to between 0 and 50 percent of
                  the HHAs they surveyed. Despite conducting recertification surveys for


                  41
                     Surveyors cited 343 HHAs with 1 condition-level deficiency, 164 HHAs with 2,
                  107 HHAs with 3, and 138 HHAs with 4 or more condition-level deficiencies.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                              11
                  multiple HHAs, nine State agencies did not cite any condition-level
                  deficiencies, whereas eight State agencies cited condition-level
                  deficiencies for 20 percent or more of the HHAs receiving recertification
                  surveys. (See Appendix A-1 for the number and percentage of HHAs that
                  were cited for condition-level deficiencies, by State.) Accreditation
                  organizations gave condition-level deficiency citations to between 8 and
                  33 percent of the HHAs they surveyed. (See Appendix A-2 for the number
                  and percentage of HHAs with condition-level deficiencies, by
                  accreditation organization.)

                  Among the HHAs with condition-level deficiencies,
                  93 percent corrected all deficiencies within required
                  timeframes
                  Surveyors placed nearly all HHAs with condition-level deficiencies
                  (741 of 752) on a 90-day termination track. Ninety-three percent of HHAs
                  (692 of 741) with condition-level deficiencies corrected all deficiencies
                  and returned to compliance within the required 90-day timeframe. These
                  HHAs returned to compliance an average of 38 days following the
                  recertification survey.
                  The remaining 7 percent of HHAs (49 of 741) did not return to
                  compliance within the 90-day timeframe. Among these 49 HHAs,
                  33 corrected their deficiencies shortly after the 90-day timeframe,
                  returning to compliance an average of 130 days following the
                  recertification survey. However, one HHA did not return to compliance
                  until more than a year after the recertification survey. A CMS official
                  explained that HHAs likely exceeded the timeframe because surveyors did
                  not conduct timely followup visits or provide the HHAs with a statement
                  of deficiencies, typically resulting in an extension of the termination date.
                  Another 16 of the 49 HHAs never corrected their condition-level
                  deficiencies; CMS terminated the Medicare participation for 8 of these
                  HHAs, and 3 HHAs voluntarily discontinued their participation. The
                  remaining five HHAs continued participation in Medicare, yet CMS could
                  not determine whether the HHAs corrected their deficiencies.

                  Surveyors conducted complaint surveys for virtually
                  all of the 15 percent of HHAs that had complaints
                  lodged against them
                  CMS received 5,888 complaints concerning 1,784 HHAs (15 percent of all
                  HHAs) in FYs 2010–11. CMS classified the complaints42 lodged against

                  42
                     In this report, the term “complaint” means (unless specified otherwise) a complaint that
                  has been lodged—i.e., an allegation.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)      12
                  7 percent of HHAs (126 of 1,784) as immediate jeopardy, the most severe
                  level of complaint. The most common severity level of complaints lodged
                  was non-immediate jeopardy medium, accounting for 78 percent of all
                  HHAs (1,387) with complaints lodged against them. (Table 2 lists the
                  number and percentage of HHAs with complaints lodged against them,
                  categorized by severity level.)
                  Table 2: Complaints Lodged Against HHAs, by Severity Level

                                                                   HHAs With Complaints
                    Severity Level of Complaints Lodged
                                                                    Lodged Against Them                     Percentage
                    (Most Severe to Least Severe)
                                                                                 (n=842)

                    Immediate jeopardy                                                   126                            7%
                    Non-immediate jeopardy high                                          143                            8%
                    Non-immediate jeopardy medium                                      1,387                        78%
                    Non-immediate jeopardy low                                           239                        13%
                    Non-immediate jeopardy administrative
                                                                                         108                            6%
                    review/offsite investigation
                    Referral—immediately                                                   3                        <1%
                    Referral—other                                                         8                        <1%
                    No action necessary                                                    1                        <1%
                  Note: Some HHAs had more than one complaint lodged against them; however, we counted each HHA only

                  once for each complaint severity level. 

                  Source: OIG analysis of 1,784 HHAs with complaints lodged against them in FYs 2010–11. 



                  Surveyors conducted complaint surveys for 1,781 of the 1,784 HHAs that
                  had one or more complaints lodged against them. For the remaining
                  three HHAs, surveyors neither conducted nor required a complaint survey.
                  Surveyors found supporting evidence and substantiated at least
                  one complaint for 47 percent of HHAs (842 of 1,784) with complaints
                  lodged against them. Two or more complaints were substantiated for
                  nearly 70 percent of these HHAs (586 of 842).43 For one HHA alone,
                  surveyors substantiated 25 complaints. The most common type of
                  complaint, substantiated for 523 HHAs, related to quality of care and
                  treatment of patients. (Table 3 lists the most common types of complaints
                  lodged and substantiated against HHAs and Appendix B provides a
                  comprehensive list of lodged and substantiated complaints.)

                  Of the 1,615 HHAs with complaint survey records stored in ASPEN,
                  7 percent (113 of 1,615) were cited with at least one condition-level
                  deficiency.44 Surveyors cited an additional 39 percent of HHAs

                  43
                     Two hundred fifty-six HHAs had one substantiated complaint, 196 HHAs had 2,
                  164 HHAs had 3, 87 HHAs had 4, and 139 HHAs had 5 or more substantiated
                  complaints.
                  44
                     As previously stated, we could not include in this analysis the 261 HHAs that received
                  a complaint survey but lacked records of the survey results in ASPEN.

Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                        13
                  (636) with standard-level deficiencies only. For the remaining 54 percent
                  of HHAs (866), surveyors cited no deficiencies.
                  Table 3: HHAs With Substantiated Complaints, by Complaint Type

                                                                    HHAs With Complaints                   HHAs With
                    Description of Complaint                         Lodged Against Them                Substantiated
                                                                                (n=1,784)           Complaints (n=842)

                    Quality of care/treatment                                           1,089                           523
                    Administration/personnel                                              665                           312
                    Patient rights                                                        622                           250
                    Nursing services                                                      370                           156

                    Admission, transfer, and discharge rights                             286                           124

                    Falsification of records/reports                                      207                           88
                    Fraud/false billing                                                   175                            72
                    Patient neglect                                                       167                            77
                  Note: Some HHAs had more than one complaint lodged against them and/or more than one substantiated

                  complaint; however, we counted each HHA only once for each complaint description.

                  Source: OIG analysis of 1,784 HHAs with complaints lodged against them in FYs 2010–11. 



                  With few exceptions, HHAs corrected all condition-level
                  deficiencies cited during complaint surveys
                  Surveyors placed all HHAs that were cited for a condition-level deficiency
                  during a complaint survey on a 90-day termination track.
                  Eighty-two percent of HHAs (93 of 113) that were cited for
                  condition-level deficiencies corrected all deficiencies and returned to
                  compliance within required timeframes—on average, 32 days following
                  the complaint survey. Among the 18 percent of HHAs (20 of 113) that did
                  not return to compliance as required, CMS terminated the Medicare
                  participation of 9 HHAs, and another 4 HHAs voluntarily discontinued
                  their participation. The remaining seven HHAs corrected their
                  condition-level deficiencies after the required 90-day timeframe, returning
                  to compliance, on average, 120 days following the complaint survey.

                  State agencies conducted look-behind surveys of
                  14 percent of HHAs surveyed by accreditation
                  organizations, exceeding CMS’s 5-percent standard
                  Accreditation organizations conducted recertification surveys of
                  18 percent of all HHAs (1,106 of 6,316) during FYs 2010–11. To monitor
                  accreditation organizations’ performance during this time, State agencies
                  conducted look-behind surveys of 14 percent (153) of the 1,106 HHAs
                  surveyed by the three accreditation organizations. This exceeded CMS’s
                  5-percent standard for look-behind surveys of HHAs surveyed by
                  accreditation organizations. For 24 of the 153 HHAs that received a
                  look-behind survey, State agencies identified condition-level deficiencies


Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                         14
                  that accreditation organizations missed, resulting in an overall 16-percent
                  disparity rate.

                  CMS rarely conducted look-behind surveys for
                  oversight of State agencies’ surveys of HHAs; such
                  look-behind surveys are not required by Federal
                  regulation
                  Although State agencies conduct most recertification surveys (82 percent
                  of all HHAs during FYs 2010–11), Federal regulations do not require
                  CMS to perform look-behind surveys to assess State agencies’ survey
                  performance. Further, during FYs 2010–11, CMS rarely conducted such
                  surveys. Specifically, among the 5,210 HHAs that received recertification
                  surveys from State agencies, 5 HHAs—about one-tenth of 1 percent—
                  received a look-behind survey from CMS, with all 5 surveys occurring in
                  FY 2010. The small number of look-behind surveys prevents any
                  conclusion as to the usefulness of conducting such surveys. It also
                  prevents CMS from calculating disparity rates for State agencies’ surveys
                  of HHAs and thus from using these rates to evaluate State agencies in the
                  manner it evaluates accreditation organizations.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   15
                  CONCLUSION AND RECOMMENDATION
                  Over the last decade, the use of home health services increased
                  significantly and Medicare payments for such services and the number of
                  HHAs both more than doubled. CMS is responsible for ensuring that
                  HHAs comply with Federal requirements and provide quality care, and
                  CMS relies on State agencies and accreditation organizations to verify
                  HHAs’ compliance through onsite surveys and complaint investigations.
                  Overall, we found that surveyors conducted recertification surveys and
                  investigated complaints as required and that HHAs cited with
                  condition-level deficiencies took corrective action during FYs 2010–11.
                  To assess accreditation organizations’ survey performance, CMS
                  contracted with State agencies to conduct look-behind surveys of HHAs
                  surveyed by accreditation organizations. However, CMS is not required to
                  conduct, and rarely conducted, similar look-behind surveys to assess State
                  agency survey performance. Given that State agencies conducted the vast
                  majority of HHAs’ recertification surveys (82 percent in FYs 2010–11)
                  and demonstrated wide variation in citing condition-level deficiencies, the
                  lack of look-behind surveys for oversight of State agencies could present a
                  vulnerability to program effectiveness and quality of care for Medicare
                  beneficiaries. By way of comparison, CMS is required to conduct, and
                  routinely conducts, look-behind surveys of State agency-surveyed nursing
                  homes, which serve beneficiary populations similar to those of HHAs.
                  We recommend that CMS:
                  Analyze Survey Data to Determine Whether It Should Routinely
                  Conduct Look-Behind Surveys for Oversight of State Agencies
                  CMS should analyze existing survey data to determine whether to assess
                  State agency survey performance and implement routine look-behind
                  surveys of HHAs surveyed by State agencies. Conducting look-behind
                  surveys for State agencies in the same manner as those that CMS is
                  required to conduct for accreditation organizations would provide CMS
                  with disparity rates for State agencies. Considering that many State
                  agencies cited few or no condition-level deficiencies for HHAs during
                  recertification surveys, look-behind surveys would also provide CMS with
                  insight regarding variation among States in issuing condition-level
                  deficiency citations.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   16
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation to analyze survey data to
                  determine whether it should routinely conduct look-behind surveys for
                  oversight of State agencies. CMS stated that its central office will work
                  with the CMS regional offices to identify State agencies with the greatest
                  need for look-behind surveys. CMS also stated that it will evaluate other
                  oversight options to monitor State agency performance. For the full text
                  of CMS’s comments, see Appendix C.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)   17
                   APPENDIX A
                   The Number and Percentage of Home Health Agencies Cited
                   With Condition-Level Deficiencies on Recertification Surveys
                   During Fiscal Years 2010–11
  Table A-1: Home Health Agencies Cited With Condition-Level Deficiencies
  on Recertification Surveys Conducted by State Survey Agencies During
  Fiscal Years 2010–11
                                 Home Health Agencies                                     Percentage of HHAs
                                                                  HHAs Cited With
                                    (HHA) Receiving a                                              Cited With
   State                                                           Condition-Level
                                 Recertification Survey                                       Condition-Level
                                                               Deficiencies (n=542)
                                               (n=5,210)                                         Deficiencies
   U.S. Virgin Islands                                2                           1                       50%

   Michigan                                          64                          31                       48%

   Idaho                                             27                           9                       33%

   Montana                                           24                           8                       33%

   Colorado                                          86                          25                       29%

   Nevada                                            35                           8                       23%

   California                                       375                          74                       20%

   Maine                                              5                           1                       20%

   Kansas                                            98                          15                       15%

   Puerto Rico                                       20                           3                       15%

   Arizona                                           51                           7                       14%

   Ohio                                             308                          42                       14%

   Vermont                                            7                           1                       14%

   Indiana                                          135                          17                       13%

   New Mexico                                        39                           5                       13%

   Alabama                                           65                           8                       12%

   Florida                                          351                          37                       11%

   Iowa                                              99                          11                       11%

   Texas                                          1,114                         123                       11%

   Connecticut                                       50                           5                       10%

   District of Columbia                              20                           2                       10%

   New Hampshire                                     20                           2                       10%

   Minnesota                                        131                          12                        9%

                                                                                          continued on next page




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)         18
  Table A-1: Home Health Agencies Cited With Condition-Level Deficiencies
  on Recertification Surveys Conducted by State Survey Agencies During
  Fiscal Years 2010–11 (Continued)
                                        Home Health Agencies                                                  Percentage of HHAs
                                                                                HHAs Cited With
                                           (HHA) Receiving a                                                           Cited With
   State                                                                         Condition-Level
                                        Recertification Survey                                                    Condition-Level
                                                                             Deficiencies (n=542)
                                                      (n=5,210)                                                      Deficiencies
   New Jersey                                                   22                                  2                         9%

   Utah                                                         64                                  6                         9%

   Arkansas                                                    119                                  9                         8%

   Kentucky                                                     73                                  6                         8%

   Illinois                                                    287                                 21                         7%

   Louisiana                                                   105                                  7                         7%

   Massachusetts                                                86                                  6                         7%

   Georgia                                                      64                                  4                         6%

   Missouri                                                    119                                  7                         6%

   Wyoming                                                      16                                  1                         6%

   Oklahoma                                                    108                                  5                         5%

   Washington                                                   22                                  1                         5%

   New York                                                    115                                  5                         4%

   Tennessee                                                    48                                  2                         4%

   West Virginia                                                53                                  2                         4%

   South Dakota                                                 37                                  1                         3%

   Virginia                                                    104                                  3                         3%

   South Carolina                                               48                                  1                         2%

   Wisconsin                                                    86                                  2                         2%

   North Carolina                                              108                                  1                         1%

   Pennsylvania                                                228                                  3                         1%

   Alaska                                                       11                                  0                         0%

   Delaware                                                     11                                  0                         0%

   Hawaii                                                         7                                 0                         0%

   Maryland                                                     18                                  0                         0%

   Mississippi                                                  26                                  0                         0%

   Nebraska                                                     52                                  0                         0%

   North Dakota                                                 14                                  0                         0%

   Oregon                                                       29                                  0                         0%

   Rhode Island                                                   4                                 0                         0%
  Source: Office of Inspector General (OIG) analysis of Automated Survey Processing Environments’ recertification data for

  fiscal years 2010–11. 





Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                           19
  Table A-2: Home Health Agencies Cited With Condition-Level Deficiencies
  on Recertification Surveys Conducted by Accreditation Organizations
  During Fiscal Years 2010–11
                                        Home Health Agencies                                                   Percentage of HHAs
                                                                                HHAs Cited With
   Accreditation                           (HHA) Receiving a                                                            Cited With
                                                                                 Condition-Level
   Organization                         Recertification Survey                                                     Condition-Level
                                                                             Deficiencies (n=210)
                                                      (n=1,106)                                                       Deficiencies
   The Joint Commission                                        480                               159                              33%
   Accreditation Commission
                                                               142                                 13                               9%
   for Health Care
   Community Health
                                                               484                                 38                               8%
   Accreditation Program
  Note: Each accreditation organization uses its own survey instrument and methodology. Although accreditation organizations must
  match their deficiency citations to those used by State agencies, a deficiency cited by an accreditation organization may or may not
  correspond directly to a deficiency cited by a State agency.
  Source: OIG analysis of recertification data from the Accrediting Organization System for Storing User Recorded Experiences for fiscal
  years 2010–11.




Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                                  20
                       APPENDIX B
                       Types of Complaints Lodged and Substantiated Against Home
                       Health Agencies During Fiscal Years 2010–11
                                                      Home Health Agencies (HHA)
                                                                                                 HHAs With Substantiated
   Complaint Description                                 With Complaints Lodged
                                                                                                     Complaints (n=842)
                                                          Against Them (n=1,784)
   Quality of care/treatment                                                     1,089                                    523

   Administration/personnel                                                        665                                    312

   Patient rights                                                                  622                                    250

   Nursing services                                                                370                                    156

   Admission, transfer, and discharge rights                                       286                                    124

   Other                                                                           228                                    111

   Falsification of records/reports                                                207                                        88

   Patient neglect                                                                 167                                        77

   Fraud/false billing                                                             175                                        72

   Unqualified personnel                                                           136                                        71

   Patient assessment                                                                94                                       50

   Patient abuse                                                                     97                                       42

   Misappropriation of property                                                    100                                        38

   Infection control                                                                 57                                       26

   Rehabilitation services                                                           41                                       19

   Physician services                                                                28                                       15

   Other services                                                                    32                                       11

   State licensure                                                                    7                                        4

   Accidents                                                                          8                                        3

   Quality of life                                                                    8                                        2

   Physical environment                                                              10                                        2

   Pharmaceutical services                                                            6                                        1

   Death                                                                              5                                        1

   Educational services                                                               3                                        1

   State monitoring                                                                   2                                        1

   Restraints/seclusion—general                                                       1                                        1

   No classification given                                                            8                                       0

   Injury of unknown origin                                                           5                                        0
  Note: Some complaints had more than one description and some HHAs had more than one complaint; however, we counted each

  HHA only once for each complaint description.

  Source: Office of Inspector General analysis of complaints data from Automated Survey Processing Environments for fiscal

  years 2010-11. 





Home Health Agencies Received Timely Surveys and Corrected Deficiencies As Required (OEI-06-11-00400)                          21
                               APPENDIX C
                               Agency Comments

   ...•~...-- .•.
  (;T                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Cen.ers lor Medicare & Medicaid Services

   ..••.
       .(a-'-oI"#III
                                                                                                    AdminislTator

                       DATE:
                                   MAR 0 5 2013                                                     Washlng.on.   DC 2020'




                       TO:            Daniel R. Levinson
                                      Inspector General

                       FROM:          Marilyn TlN.enner
                                      Acting ~dminislrator

                       SUBJECT:       Office of Inspector General (OIG) Draft Report: Home Health Agencies Received Timely
                                      Surveys and Corrected Deficiencies as Required (OEI-06-11-00400)

                       Thank you for the opportunity to review and comment on the above subject draft report .. The Centers
                       for Medicare & Medicaid Services (eMS) appreciates the extensive work done by OIG staff in the
                       development of the report. eM is dedicated to its responsibility to oversee the surveys of home health
                       agencies (HHAs) on a timely basis and making sure all deficiencies are corrected in order to protect the
                       beneficiaries served by these providers. urveys of HHAs are conducted by both state agencies and
                       approved Accrediting Organizations (AOs). Surveys include initial certifications, recertification and
                       complaint surveys as well as validation surveys of AOs. eMS recognizes the growth of HHAs and the
                       risks posed to the Medicare program and the importance of compliance with eMS requirements. The
                       OIG s objectives for this study are to determine the extent to which: (1) state survey agencies and
                       accreditation organizations conducted recertification surveys of HHAs within required timeframes
                       during fiscal years (FYs) 2010-11; (2) HHAs received deficiency citations on recertification surveys
                       and the nature and resulting actions of those deficiencies during FYs 2010-11; (3) HHAs had
                       complaints lodged (i.e., allegations made) against them, the nature of those complaints, and the
                       actions resulting from those complaints during FYs 2010-11; and (4) eMS used "look-behind"
                       surveys to assess the performance of surveyors during FYs 2010-11.

                       The OIG recommendation and eMS response are discussed below.

                       OIG Recommendation

                       The OIG recommends that eMS analyze survey data to determine whether it should routinely
                       conduct look-behind surveys for oversight of state agencies.

                       CMS Response

                       The eMS concurs with this recommendation. eMS is striving to strengthen our reviews of HHAs in
                       a variety of ways. An increase in HHA look-behind survey activity would be an effective tool in this
                       effort. While look-behind activity in HHAs is not statutorily based, eMS's central office will work
                       with our regional offices to develop criteria that will target the need for HHA look behind activity in
                       a particular state agency based upon the agency's survey reports, to the extent possible within
                       existi.ng fiscal constraints. CMS will also evaluate a variety of other options to assure effective look-
                       behind oversight of SA performance.

                       The eMS looks forward to working with OIG on this and other issues in the future.




Survey and Certification of Home Health Agencies in FY 2010-2011 (OEI-06-11-00400)                                                             22
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Kevin K. Golladay,
                   Regional Inspector General for Evaluation and Inspections in the Dallas
                   regional office; Blaine Collins, Deputy Regional Inspector General; and
                   Ruth Ann Dorrill, Deputy Regional Inspector General.
                   Jennifer Gist and Petra Nealy served as co-project leaders for this study.
                   Central office staff who provided support include Berivan Demir Neubert,
                   Sandy Khoury, and Christine Moritz.
                   We would also like to acknowledge the contributions of other Office of
                   Evaluation and Inspections regional office staff, including
                   Leah K. Bostick.




Survey and Certification of Home Health Agencies in FY 2010-2011 (OEI-06-11-00400)           23
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
